- -               of the
the other was forwarded to us b
program mismanagement by
                                  CLOSEOUT FOR M97080024

       On August 25, 1997, OIG received two copies of an anonymous letter addressed to

                                    y

                       program in the
                                                       One was sent directly to OIG, and
                                         . The letter made various allegations of serious
                                            (the program manager), who manages NSF' s


       The letter alleged that the program manager, in deciding whether to recommend that
NSF support research proposed to her program, had made a series of "subjective, perhaps
biased" recommendations. It alleged that the program manager did not treat scientific merit as
a primary factor in determining her recommendations and regularly slighted or ignored the
advice of NSF's merit reviewers. The letter mentioned two awards as illustrating the program
manager's alleged pattern of abuse. The frst project w
                                                     ,-sa                entitled

.-         " -       o       f
                                                         -      -   -   --   -   ------
                                                         was the PI. The second project was

                                 ---   -


was the fi. he letter alleged that the program-manager    was supporting the second           by
"quietly transferring funds" to another federal agency, thereby "violat[ing] all elements of the
peer reviiw process." The letter also questioned the scientific merit of these two projects.

        The anonymous letter mentioned the program manager's handling of two awards as
illustrating the program manager's pattern of mismanagement. OIG examined the reviewer
ratings for the two projects and determined that the ratings were consistent with the program
manager's recommendation that NSF fund the projects. We further determined that NSF was
funding the second project directly, and not through an interagency transfer or some
surreptitious process that avoided merit review. We concluded that, insofar as the letter made
specific factual allegations about mismanagement of these two awards, NSF's records did not
support these allegations.

        OIG concluded that the letter provided no evidence to support the broader allegation
that the program manager's funding recommendations were generally biased, abusive, or
insufficiently attentive to merit reviewers' evaluations. OIG decided that these unsubstantiated
allegations of impropriety should not prompt more intensive investigative scrutiny of how the
program manager administered her program. The quality of a program manager's judgment
concerning the scientific merit of particular projects is a program management matter, and not
an issue for OIG. When OIG receives information that raises credible and substantive program

                                           page 1 of 2                             M97-24
                                       CLOSEOUT FOR M97080024

 management issues, OIG refers that information to NSF to evaluate whether the issues warrant
 management action. Because, in OIG's judgment, none of the allegations in the anonymous
 letter concerning program management issues was supported by the available evidence, OIG
 concluded that these issues did not warrant a referral by OIG to NSF program management.'

         The letter also alleged that the first project posed threats to wildlife. OIG determined
 that this project had received the necessary research permits. Our examination of the award
 and permit files indicated that potential threats to wildlife were considered in the proposal and
 permit review processes.

         This inquiry is closed and no further action will be taken on this case.

 CC:IG, AIG-0




1
         OIG noted that the anonymous letter indicated that the program manager's supervisor was being sent a
copy of the letter. However, because of the paucity of substance to the issues raised in the letter, OIG did not
ascertain whether the supervisor had received the anonymous letter or considered the criticisms in it.


                                              page 2 of 2                                   M97-24
                               Closeout for M97080023
   On August 25, 1997, OIG received an allegation that a proposal1 submitted by
the PI (the subject) to NSF contained plagiarized text. It was alleged that the PI
had copied nearly an entire paragraph from a published review article2 into his
proposal.
    OIG compared the text of the proposal and the article. OIG identified a
paragraph in the proposed text comprised of approximately six non-sequential
sentences copied from the article that had not been distinguished from the
proposal's other text or cited to the article. All the copied text appeared as general
background material and it did not appear to contain any ideas that were necessary
to his proposed work. When OIG contacted the PI to ask for his explanation, he
said that he did not make use of any of the ideas in the article in proposing his
experiments. He said that he did use some text from the review article to indicate
that the field was active. He said that not putting the sentences in quotation marks
was an error on his part. The PI said his writing skills were perhaps not as good as
other PIS because English was not his first language (as commented on by one of
the reviewers as well), and he was not aware of the correct way to cite others' work.
   Although there was some duplicated text, given the small amount, the nature of
the PI's use of that text, and the PI's difficulty with writing English, OIG
determined that the PI's use of the copied text was a deviation from the community
standards, but did not rise to the level of a serious deviation. OIG decided that, in
this instance, it would be more appropriate to ask the PI to correct NSPs record by
submitting a corrected paragraph to the NSF program to replace the original
paragraph in his declined proposal.
    The PI provided a corrected paragraph to the NSF program that contained a
citation to the source document and placed quotation marks around the text from
the article. He clearly identified that the material in the paragraph was not his
own, and what the source of the text was. OIG verified with the NSF program that
the corrected material was placed in the jacket.3
   This inquiry is closed and no further action will be taken on this case.
cc: Legal, AIG-Oversight, IG




   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).



                                      Pg. 1of 1
